No. 19-783
In The

(Eourt af tl}e '^xdithi^XuXt^

Nathan Van Buren,
Petitioner,
V.

United States of America,
Respondent.

CERTIFICATE OF SERVICE

I, Clifford W. Berlow, hereby certify that I am a member of the bar of this Court
and that I have this 17th day of January, 2020, caused three copies of the foregoing
Brief of the National Association of Criminal Defense Lawyers as Amicus Curiae in
Support of Petitioner to be served via electronic mail and UPS overnight delivery,
postage prepaid on:
Jeffrey L. Fischer
Stanford Law School
Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
jlfisher@law.stanford.edu
Counsel for Petitioner

Noel J. Francisco
Counsel of Record Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

CliffA/d W. Berlow

